No.

JAMAAL How ARD, PETITIONER
V.

BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION, RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

COMES NOW, Petitioner Jamaal Howard, and respectfully requests leave to file
the attached petition for a writ of certiorari without prepayment of costs and to proceed in

Jonna pauperis. Petitioner represents, through undersigned counsel, represents that he
has previously been granted leave to proceed in Jonna pauperis in the United States
Court of Appeals for the Fifth Circuit and the United States District Court for the Eastern
District of Texas under the Criminal Justice Act of 1964, 18 U.S.C. ยง 3006(A).
Undersigned counsel represented Petitioner before the Fifth Circuit after prior federal
habeas counsel withdrew.
RESPECTFULLY SUBMITTED,

~-~h
Don Bailey
J
Attorney for Petitioner
309 N. Willow
Sherman, Texas 75090

